UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6657

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
WAYNE PORTER,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of North Carolina, at
Charlotte. Martin K. Reidinger, Chief District Judge. (3:85-cr-00062-MR-l)

Submitted: September 30, 2020

Decided: October 8, 2020

Before WILKINSON and KING, Circuit Judges, and SHEDD, Senior Circuit Judge.

Affirmed by unpublished per curiam opinion.

Wayne Porter, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

2U

PER CURIAM:
Wayne Porter appeals the district court’s order denying his Fed. R. Crim. P. 36
motion. We have reviewed the record and find no reversible error. Accordingly, we affirm
for the reasons stated by the district court. United States v. Porter, No. 3:85-cr-00062-MR1 (W.D.N.C. Apr. 13, 2020). We dispense with oral argument because the facts and legal
contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

2 .

xx

THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
CRIMINAL CASE NO. 3:85-cr-00062-MR-1

UNITED STATES OF AMERICA,

)
)

Plaintiff,

)
)

vs.

)

ORDER

)
)

WAYNE PORTER,

)
)

Defendant.

)
)

THIS MATTER is before the Court on the Defendant’s “Motion to
Correct Errors...” [Doc. 29].
In 1985, the Defendant Wayne Porter was charged in a Bill of
Indictment with a total of 28 counts, including five charges of conspiracy, in
violation of 21 U.S.C. § 846; one charge of engaging in a continuing criminal
enterprise, in violation of 21 U.S.C. § 848; several counts of possession with
intent to distribute controlled substances, in violation of 21 U.S.C. § 841; use
of a communication facility in the commission of a drug felony, in violation of
21 U.S.C. § 843; traveling in interstate commerce to carry on illegal drug
activity, in violation of 18 U.S.C. § 1952; and aiding and abetting the same.
See United States v. Porter. 821 F.2d 968, 971 (4th Cir. 1987). Following a

Case 3:85-cr-00062-MR Document 30 Filed 03/31/20 Page 1 of 3

n

ten-day trial, a jury convicted the Defendant of sixteen counts, including all
five conspiracies and the continuing criminal enterprise count, jd. The Court
sentenced the Defendant to a term of 75 years on the continuing criminal
enterprise count, with the sentences on the remaining counts of conviction
\

to run concurrently. On appeal, the Fourth Circuit reversed a number of the
Defendant’s convictions and set his sentences aside on others. Id. at 978.
The Fourth Circuit affirmed the Defendant’s continuing criminal enterprise
conviction and sentence. ]d. The Supreme Court denied the Defendant’s
petition for a writ of certiorari. Porter v. United States. 485 U.S. 934 (1988).
The Defendant now moves the Court pursuant to Rule 36 of the
Federal Rules of Criminal Procedure to correct a number of alleged “errors”
set forth in the Fourth Circuit’s decision affirming his conviction and
sentence. [Doc. 29 at 1],
Rule 36 of the Federal Rules of Criminal Procedure provides that “the
court may at any time correct a clerical error in a judgment, order, or other
part of the record, or correct an error in the record arising from oversight or
omission.” Fed. R. Crim. P. 36. “[A] defendant may obtain relief under Rule
36 based on clerical errors, not substantive errors.”

United States v.

Vanderhorst. 927 F.3d 824, 828 (4th Cir. 2019). Here, the alleged errors
complained of are in fact substantive challenges to the validity of the
2

Case 3:85-cr-00062-MR Document 30 Filed 03/31/20 Page 2 of 3

Defendant’s conviction and sentence. Such a challenge may be made only
on direct appeal or in an appropriate post-conviction proceeding, the time for
which has long since expired. For these reasons, the Defendant’s Rule 36
motion is denied.
IT IS, THEREFORE, ORDERED that the Defendant’s “Motion to
Correct Errors...” [Doc. 29] is DENIED.
IT IS SO ORDERED.

Signed: April 13, 2020

£
Matirri Reidinger
United States District Judge

$3$

3

Case 3:85-cr-00062-MR Document 30 Filed 03/31/20 Page 3 of 3

Additional material
from this filing is
available in the
Clerk's Office.

